     Peace Corps
     Office of Inspector General
 




    Final Program Evaluation Report:
           Peace Corps/Jordan

                              September 2009
Final Program Evaluation Report:
       Peace Corps/Jordan
                    IG-09-15-E




        ______________________________________________


                  Susan Gasper
Acting Assistant Inspector General for Evaluations




                 September 2009
                             EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an evaluation of Peace Corps/Jordan
operations November 1 - 21, 2008. The evaluation covered fiscal years 2007 and 2008
and reviewed programming, training, Volunteer support, health care, Volunteer safety,
housing, work sites, and staff organization.

At the onset of our evaluation, there were 56 Volunteers and 18 staff in Jordan.
Interviews were conducted with 14 Volunteers (25% of Volunteers) and 10 in-country
staff. Additional interviews were conducted with Peace Corps headquarters staff, U.S.
Embassy representatives in Jordan, and key project partners. PC/Jordan has three project
sectors: (1) Youth Development; (2) Special Education; and (3) Teaching English as a
Foreign Language (TEFL).

The OIG evaluation determined that PC/Jordan has a competent staff working in a
politically charged cultural context. Despite the post’s challenge of identifying and
retaining appropriate counterparts, Volunteers reported that they are generally satisfied
with site placements. PC/Jordan works effectively with host country stakeholders, and
has effective operational systems in place related to programming, training, and most
aspects of Volunteer support. Safety and security of the Volunteer is of primary concern
for PC/Jordan and is integrated into all aspects of the post’s operations.

In addition to identifying successful systems and initiatives, we identified opportunities to
improve the effectiveness of Peace Corps/Jordan:

    •   While pleased with current Volunteer efforts, Ministry partners believe they
        would be further served by Volunteers with more relevant expertise and
        experience.
    •   The post has the second highest early termination (ET) rate in the Europe,
        Mediterranean and Asia (EMA) region – likely influenced by cultural integration
        issues and unclear expectations of support.
    •   In interviews, Volunteers cited technical training deficiencies in all sectors.
    •   Due to agency budget cuts, the post is facing impacts to programming, training,
        and Volunteer support activities.

Our report contains 14 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Jordan                                         i
                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i

HOST COUNTRY BACKGROUND................................................................................. 1

PEACE CORPS/JORDAN PROGRAM BACKGROUND ............................................... 1

OBJECTIVES, SCOPE, AND METHODOLOGY............................................................ 2

EVALUATION RESULTS ................................................................................................ 4

PROGRAMMING .................................................................................................................... 4

CROSS-CULTURAL UNDERSTANDING ................................................................................... 6

TRAINING ............................................................................................................................. 9

VOLUNTEER SUPPORT ........................................................................................................ 12

MANAGEMENT CONTROLS ................................................................................................. 17

POST STAFFING............................................................................................................. 21

INTERVIEWS CONDUCTED ........................................................................................ 22

LIST OF RECOMMENDATIONS .................................................................................. 23

APPENDIX A: MANAGEMENT’S RESPONSE

APPENDIX B: OIG COMMENTS

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT
                        HOST COUNTRY BACKGROUND
The Hashemite Kingdom of Jordan 1 is a Middle Eastern country surrounded by Saudi
Arabia, Iraq, Syria, Israel, and the Palestinian Territories. This small country (slightly
smaller than Indiana) shares borders with several countries in political turmoil or at war,
yet Jordan is relatively stable and safe. Jordan’s population, mainly Muslim, includes
many refugees from neighboring countries. Poverty and high unemployment of a well-
educated population are Jordan’s major challenges, brought on in part by limited natural
resources, high foreign debt, and an increasing immigrant population over the last four
decades. Threats of external and homegrown terrorism are real and constant, but crime
rates are low.


        PEACE CORPS/JORDAN PROGRAM BACKGROUND
The United States and Jordan share an active country agreement that was signed in 1996.
The agreement lays out the major responsibilities held between the governments of
the United States and Jordan, though the language is not specific to program sectors or
Volunteer activities. Based on input and guidance from the Ministries of Social
Development, Education, and the Higher Council for Youth, PC/Jordan provides the
following projects to targeted populations.

    •   The Teaching English as a Foreign Language (TEFL) project operates in
        partnership with the Ministry of Education in government primary and secondary
        schools, predominantly in rural areas. Volunteers focus on developing student
        and staff communicative skills in English, improving school resources and
        materials, and working with their colleagues to develop effective and innovative
        teaching methods to complement the curriculum.
    •   The Special Education project strives to improve the quality of care for the
        physically and mentally challenged. The project focuses its efforts on basic
        education, improving essential care and services, developing staff skills and
        knowledge, as well as raising public awareness of issues faced by this socially
        marginalized group. As new reforms and initiatives are suggested, the project
        works with the Ministry of Social Development to ensure that its programs and
        services continue to meet the needs of these citizens.
    •   The Youth Development project works in coordination with the Ministry of
        Social Development, the Higher Council for Youth, and Jordanian non-
        governmental organizations. Volunteers work in youth and community centers to
        improve social outreach programs aimed at preparing youth for their future roles
        within the family, the world of work, and society. Volunteers work with local
        partners to create programs and activities which develop positive life skills. In

1
 The Hashemite Kingdom of Jordan will be referred to as Jordan throughout the rest of the report.
Final Program Evaluation Report: Peace Corps/Jordan                                                 1
        addition, Volunteers work closely with youth to promote healthy lifestyles
        targeting issues such as smoking, nutrition, hygiene and the importance of
        exercise.

To date, over 300 Volunteers have served in Jordan. The first group of Volunteers
arrived in 1997 to assist with community development projects. The assignments were
geared to assist the ongoing efforts of national NGOs and ministries to expand the
economic and social opportunities for women and youth-at-risk in communities. The
TEFL program was created in response to the Ministry of Education’s request for teacher
training and acknowledgement of the importance of English as the language of global
commerce.

Due to security concerns, the Peace Corps suspended the program and withdrew its
Volunteers in November 2002. The country director and Jordanian staff used this period
to evaluate programs, redesign training, and upgrade site development and safety and
security systems. In June 2003, a Peace Corps assessment team, working with U.S.
embassy and Jordanian officials, deemed the situation in the country stable, and
Volunteers returned in February 2004. At the onset of our review, the post had 56 Peace
Corps Volunteers in the field and 18 staff members based in the capital city of Amman.

Programmatic direction is developed in close collaboration with the Ministries of Social
Development, Education, and the Higher Council for Youth. The program continues to
focus on teaching English, special education, and a wide range of youth development
activities. Gender plays a major role in programming and training, particularly when
placing Volunteers in rural assignments where the separation between males and females
is strict. The training input for FY 2009 was postponed due to budget constraints and a
plan to change the timing of PST; the next group of Trainees will arrive in the first
quarter of FY 2010.



            OBJECTIVES, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency
in government. In February 1989, the Peace Corps/OIG was established under the
Inspector General Act of 1978 and is an independent entity within the Peace Corps. The
Inspector General (IG) is under the general supervision of the Peace Corps Director and
reports both to the Director and Congress.

The Evaluations Unit within the Peace Corps Office of Inspector General provides senior
management with independent evaluations of all management and operations of the
Peace Corps, including overseas posts and domestic offices. OIG evaluators identify best
practices and recommend program improvements to comply with Peace Corps policies.



Final Program Evaluation Report: Peace Corps/Jordan                                    2
The Office of Inspector General Evaluations Unit announced its intent to conduct an
evaluation of PC/Jordan on September 23, 2008. For post evaluations, we use the
following researchable questions to guide our work:
•   To what extent has the post developed and implemented programs intended to
    increase the capacity of host country communities to meet their own technical needs?
•   To what extent has the post implemented programs to promote cross-cultural
    understanding?
•   To what extent does training provide Volunteers the necessary knowledge, skills, and
    attitudes to integrate into the community and perform their jobs?
•   To what extent has the post provided adequate support and oversight to Volunteers?
•   To what extent are post resources and agency support and oversight effectively
    aligned with the post's mission and program, and agency priorities?

The evaluation team conducted the preliminary research portion of the evaluation
September 24 - October 31, 2008. This included review of agency documents provided
by headquarters and post staff and interviews with management staff representing the
region and the Office for Overseas Programming and Training Support (OPATS)
(previously called the Center for Field Support and Applied Research). Fieldwork
occurred November 1 - 21, 2008, and was comprised of interviews with: post senior staff
in charge of programming, training, and support; the U.S. Ambassador; the U.S. Embassy
Deputy Director of Security, Regional Security Office; and host country government
ministry officials. In addition, we interviewed a stratified judgmental sample of 25% of
currently serving Volunteers based on their length of service, site location, project focus,
gender, age, and ethnicity. Twelve Volunteers were identified as part of the sample and
an additional two Volunteers requested and were granted interviews.

        Table 1: PC/Jordan Volunteer Demographic Data
                          Project                          Percentage of Volunteers
         Special Education                                          21%
         Teaching English as a Foreign Language                     52%
         Youth Development                                          27%
                          Gender                           Percentage of Volunteers
         Male                                                       43%
         Female                                                     57%
                            Age                            Percentage of Volunteers
         25 or younger                                              59%
         26-29                                                      18%
         30-54                                                      16%
         55 and over                                                 7%
        Source: PC/Jordan Volunteer Roster, October 2008




Final Program Evaluation Report: Peace Corps/Jordan                                       3
The majority of the Volunteer interviews occurred at the Volunteers’ homes; we also
inspected these homes using post-defined site selection criteria. The period of review for
a post evaluation is one full Volunteer cycle (typically 27 months).

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by Council of the Inspectors General on Integrity and Efficiency (CIGIE). The
findings and recommendations provided in this report have been reviewed by agency
stakeholders affected by this review.


                             EVALUATION RESULTS
PROGRAMMING

The evaluation assessed whether the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical
needs. To determine this, we analyzed the following:
    •   The coordination between Peace Corps and the host country in determining
        development priorities and Peace Corps program areas.
    •   The existence of project plans based on host country development priorities and
        the Volunteers’ understanding of the project plan goals and objectives.
    •   Whether Volunteers are placed in sites where they can contribute meaningfully to
        meeting host country development priorities.
    •   Relationships with counterparts that enable Volunteers to have productive work
        assignments that meet host country development priorities.

We found no significant areas of concern that would warrant action by the post related to
PC/Jordan’s project plans and feedback loops related to programming. Volunteers
reported that they are aware of their project goals and 79% of those interviewed stated
that their activities related to their project objectives moderately well to very well. The
post continues to work with staff from OPATS and the region to hone its project plans.
The post also works with its sponsoring organizations in country on an as-needed basis
and has annual Project Advisory Council (PAC) meetings. PC/Jordan programming staff
reported that they believe that PACs provide a valuable perspective but that they lack the
financial resources to be truly effective. The post has also piloted regional workshops
which provide technical training to counterparts, and a forum for community stakeholders
to discuss experiences and expectations and provide feedback in a cost-effective manner.
Additionally, the post’s systematic coordination with Jordanian government officials in
its site development practices to ensure Volunteer safety is a practice that sets PC/Jordan
apart from other posts.

PC/Jordan is working with sponsoring host government officials to place Volunteers in
safe work environments.



Final Program Evaluation Report: Peace Corps/Jordan                                      4
Volunteer safety and security is a primary concern for Peace Corps, the U.S. Embassy,
and the Jordanian government. The three entities work together to place Volunteers in
safe training and work sites. Training site locations are changed periodically as a safety
precaution.

After PC/Jordan has created its list of potential Volunteer work sites, the list is sent to the
Preventive Security Directorate (PSD), a branch within the Jordanian government, for
review. The PSD returns a list of recommended placements. PC/Jordan does not place
Volunteers in any site that has not received a recommendation from the PSD.

Another effective practice that PC/Jordan uses during site development is the Community
Meeting. This meeting, with PC/Jordan staff and representatives from the Jordanian
government in attendance, provides a forum for the community to ask questions and for
staff to assess the community’s willingness to accept a Volunteer.

The U.S. Embassy’s Deputy Director of Security stated that he was very impressed with
PC/Jordan’s site selection process and believes that it ensures the community’s
commitment to support a Volunteer. He commended Peace Corps/Jordan for doing an
excellent job with its site selection.

We encourage other posts to consider, as appropriate, employing a similar practice as part
of site development as it provides a joint assessment of the community and ensures that
the three overseeing entities are in accord.

Host country officials stated that Jordan would benefit from Volunteers with more
relevant technical expertise and experience.

During our interviews with representatives from the Ministry of Education, Ministry of
Social Development, and Higher Council for Youth, we found them well informed about
Peace Corps activities in their sectors. They viewed their relationships with Peace Corps
to be very positive. Each representative highlighted Peace Corps’ emphasis on cross-
cultural exchange, especially in the current context of U.S.-Middle East relations, as an
important mutual benefit. Additionally, they emphasized the example of volunteerism
that Peace Corps Volunteers provide to be valuable. They considered these aspects to be
among the most beneficial aspects of the Peace Corps program. However, each of the
three stated that they would benefit from more experienced Volunteers or Volunteers
with specific expertise relevant to their sectors.

Peace Corps programs worldwide struggle with balancing accomplishable project goals
related to the host country’s development priorities while effectively using the available
supply of Trainees and skills. We commend PC/Jordan for identifying the need and
requesting from the Office of Volunteer Recruitment and Selection more experienced
teachers for the next TEFL project training input. Additionally, as noted in the annual
project status reporting feedback provided by headquarters offices to posts, each
PC/Jordan project has made progress towards improving monitoring and reporting of
expected outcomes to inform future requests for Trainees with specific skills and
expertise.
Final Program Evaluation Report: Peace Corps/Jordan                                           5
                  We recommend:

                  1. That post work closely with OPATS to ensure that
                     monitoring and reporting of Volunteers’
                     performance and outcomes inform requests for
                     Trainees.

                  2. That post consider revising its project plans to use
                     Trainees’ existing skills or skills that can be
                     developed during PST.


Volunteers reported that they were satisfied with site placement in light of a
challenging counterpart environment.

Identifying and keeping motivated and trained counterparts was highlighted by post staff
as one of the top site placement challenges for PC/Jordan. Contributing to this is a high
attrition rate for individuals in counterpart positions, especially for teachers and directors.

Counterparts are initially identified by program managers. However, because
counterparts must travel to conferences and training events, and because of the social
stigma associated with females being away from home overnight, alternate 2 counterparts
are occasionally identified by the sponsoring school or center. Volunteers are
encouraged to develop additional counterpart relationships once at site. Most Volunteers
interviewed (79%) have at least one counterpart they work with regularly, most (77%)
stated they had multiple counterparts, and most have good working relationships (average
score 3.36 on a 5 point scale) with these counterparts.

         Table 2: Volunteer Responses to Select Interview Questions
                   Volunteer Interview Question                             Rating
          How satisfied are you with your job placement?             86%“satisfied” or better
          Please characterize your working relationship              71% “average” or better
          with your primary counterpart.


CROSS-CULTURAL UNDERSTANDING

The second objective of a post evaluation assesses whether Peace Corps programs in a
given country help promote a better understanding of Americans on the part of the people
served. Cultural exchange is an integral part of the transfer of knowledge and skills that
occurs between host-country community partners and Volunteers. As the only Peace
Corps post in the Middle East, and especially in the context of current political relations,
cross-cultural transfer in Jordan is seemingly even more important than in other Peace

2
 An “alternate” counterpart could be a female from a less conservative family who is able to travel or a
male.
Final Program Evaluation Report: Peace Corps/Jordan                                                        6
Corps countries. To understand the extent to which the post has implemented programs
and activities to promote cross-cultural understanding, we interviewed Volunteers, post
staff, and Ministry officials and reviewed training and evaluation materials.

PC/Jordan was the focus of an Internal Management Assessment (IMA) in 2006. The
assessment examined PC/Jordan’s strategies for operations and Volunteer service in a
politically sensitive Arab Muslim country and the issue of succession planning and
transition for key senior leadership positions at the post. The assessment found that the
operating environment is such that “the margin for error is minimal. The cultural and
religious mores are so strong at post that Volunteers and staff are simply not afforded
mistakes. Every customer encounter counts.” With that emphasis as a backdrop, the post
integrates cross cultural exchange into all aspects of programming, training, and support
operations.

PC/Jordan’s has one of the agency’s highest early termination rates.

At the time of this evaluation, PC/Jordan had the second highest early termination (ET)
rate in the EMA region at 19% with the majority of those Volunteers resigning from
service. 3 The resignation rate for 2008 was 15%. Worldwide, only four posts had a
higher resignation rate.

PC/Jordan staff expressed frustration and confusion with the ET rate and stated that there
was little to no advance dialogue of a Volunteer’s decision to terminate service. They
also expressed their concerns with the perceived lack of commitment by Volunteers and
unrealistic expectations of Volunteers – related to work situations and support. Also
noted was that what Volunteers said to staff during exit interviews differed from what
other Volunteers would relay informally about resignation reasons. Common reasons
given by Volunteers to staff were: “I’m unhappy;” “I don’t like it;” and “I’m lonely.” In
extreme situations, staff members had been informed of Volunteers’ intent to terminate
service from host country counterparts. According to the Office of Strategic Information,
Research and Planning, it had not received any ET Volunteer Resignation Reasons forms
from PC/Jordan in 2007 or 2008.

Headquarters staff, interviewed as part of this evaluation, stated that the PC/Jordan’s ET
rate has fluctuated over the years, and they did not express concern about the current rate.
Headquarters staff mentioned cross-cultural constraints and gender segregation as being
the major challenges for Volunteers. In addition, they told us they believed that
Volunteers’ reliance on support systems at home through the use of the internet and
cellphones was a constraint to cultural integration.

The most common Volunteer perspective on PC/Jordan’s ET rate was that adjusting to
Jordanian culture was very difficult and played a role in early terminations. Other
common perspectives expressed by Volunteers were:

3
 The Peace Corps tracks early termination from service in the following categories: resignation, medical
separation, administrative separation, and interrupted service. The aggregation of the categories is
considered the entire set of early terminations (ET).
Final Program Evaluation Report: Peace Corps/Jordan                                                      7
    •   Expectations of work situations were not confirmed/Volunteers felt that they
        were not doing what they had expected.
    •   Lack of support (staff support or opportunities to build Volunteer-specific
        support systems).
    •   Lack of commitment by and unrealistic expectations of Volunteers.
    •   Perception that “staff care more about numbers and appearances than people.”

Volunteers cited their most common hindrances to cultural integration as: gender
segregation/gender roles; and the need to “hide who we are” (i.e., religious beliefs,
behaviors such as drinking alcohol, interactions with opposite sex, typical
clothing/appearance, etc). Some Volunteers commented that cross-cultural exchange was
one-sided; they felt like they were living “double lives” in an effort to be accepted by
their communities. One Volunteer commented, "people ask a lot of personal questions
but the more honest you are the less likely you will be accepted."

The 2006 IMA found a similar theme of Volunteers reporting that they live “dual lives –
telling community members what they need to hear with respect to whether the Volunteer
ever drinks alcohol, has ever socially interacted with the opposite sex, or receives a text
message from a PCV of the opposite sex.”

However, there were two differences between the findings of this evaluation and the 2006
IMA. First, Volunteers’ perception of support and empathy from senior leadership and
staff was reported as high during the IMA. Support scores for PC/Jordan staff obtained
during this evaluation were generally high, though not across the board. Second, the
IMA reported a proactive Volunteer Resiliency Group as a current practice that should be
continued as a method of support. At the time of the evaluation, the Volunteer Resiliency
Group had lapsed, but the post was making significant strides in re-establishing a Peer
Support Network.

A senior EMA regional staff member told us, “…most important of Post Staff’s jobs is to
motivate Volunteers. The approach will differ depending on where a Volunteer is during
service. This becomes even more important in a post like Jordan as the culture is so very
different and Volunteers will always be at a distance.”

There are many factors that contribute to Volunteers’ resigning early from their service.
The two most significant factors that we found were Volunteers’ difficulties with cultural
integration and the appearance of a disparity in understanding between staff and
Volunteers.


                We recommend:

                3. That the post review the post’s definition of support
                   and expectations and communicate it to all
                   Volunteers and staff.

Final Program Evaluation Report: Peace Corps/Jordan                                      8
                  4. That the post create a special working group
                     comprised of staff and Volunteers to develop and
                     implement strategies to address the lack of trust
                     issues between staff and Volunteers.

                  5. That the post develop and implement strategies to
                     collect Volunteer feedback and address cultural
                     integration issues.


As reported in their Integrated Planning and Budget Strategy (IPBS), PC/Jordan had been
working towards its goal of “positively affect[ing] fill rates by increasing the recruitment
of 50+ PCVs, 4 couples, and technically qualified individuals.” To support this, the post
planned to focus on specific training needs for the 50+ Trainees and couples and using
the Training Design and Evaluation process to improve the technical training component
for the most recently entering group of Trainees.

One female Volunteer told us, “I've been able to feel successful as part of a married
couple; for single women - I have a hard time trying to imagine what it would be like.
The gender roles are difficult to work within and conform to; even being married, I have
to conform (i.e., men are supposed to do the talking). There are challenges but [being
part of a married couple] has helped my integration a lot. Women who are married and
have families see me as one of them. I can have conversations that women who are
single can't.”

We found that PC/Jordan’s consideration of placing married couples in communities to
facilitate integration promising and encourage that the post monitor the success of these
placements.


TRAINING

Another objective of the post evaluation is to answer the question “to what extent does
training provide Volunteers the necessary knowledge, skills, and attitudes to integrate
into the community and perform their jobs?” To answer this question we consider a
number of factors, including:
    •    The existence of training goals, competencies, and learning objectives that help a
         post understand the skills Volunteers need.
    •    The types of training Trainees and Volunteers receive, the topics covered during
         those training sessions, and whether training targets were met.
    •    The feedback on the effectiveness of training in providing the skills and
         knowledge needed for Volunteer assignments and success.

4
 At the time of fieldwork for this evaluation, the age of the oldest Volunteer in the field was 38.
Therefore, we were unable to address the 50+ placement strategy.

Final Program Evaluation Report: Peace Corps/Jordan                                                   9
PC/Jordan is moving its Trainee input to the first quarter of 2010 to accommodate agency
budgetary constraints and to improve the timing of pre-service training (PST). The new
PST timeframe will not occur during Ramadan, which has hindered training effectiveness
in the past. The post is revising PST and is considering changing the format from
community-based training (CBT) to mixed-format training.

Similar to other posts, PC/Jordan Volunteers receive training throughout their service:
pre-service training; an in-service training (IST) which is a Project Design and
Management workshop after six months of service; and an IST which is also known as
the mid-service conference after 12 months of service. Additionally, Volunteers
participate in counterpart trainings by sector.

PC/Jordan uses the Training Design and Evaluation (TDE) model to establish
competencies and learning objectives, as required by the agency, for pre-service training.
The post is working towards expanding the use of the model to all training events.
Training targets were met for the most recent incoming cohort of Trainees.

PC/Jordan’s approach to train to the most conservative contexts appears to prepare
Volunteers to understand cultural challenges.

PC/Jordan teaches Trainees how to be successful in the most conservative of contexts.
One hundred percent of Volunteers interviewed rated cross-cultural training during pre-
service training (PST) favorably (3 or higher on a 5 point scale), with an average rating of
3.9. The cultural training and experiences provided to Trainees appears to be effective;
93% of PC/Jordan Volunteers interviewed rated themselves as having “above average
success” to being “very successful” in understanding cross-cultural issues. The average
rating given was four on a five-point scale (1 = unsuccessful, 5 = very successful).
Additionally, the 2008 Biennial Volunteer Survey found that 93.5% of Volunteers felt
“adequately” to “very well” integrated into their community.

Jordanian government stakeholders interviewed stated that Volunteers are “well prepared
regarding traditions, language, things to keep in mind,” but that “a Volunteer’s success is
related to skills and attitude. The Volunteers who are well integrated accept the
community as it is.”

The majority of Volunteers interviewed praised the conservative approach to cultural
training and commented that “they prepared us for the worst” and “[it was] very smart to
teach to the most conservative [situations]. I’ve heard other Volunteers complain, but I'm
glad they [taught this way].” However, 4 of 14 Volunteers relayed that the approach to
cross-cultural training did not strike the right balance. They commented that they were
afraid to express themselves or where confused about when to approach members of the
opposite sex.

PC/Jordan staff members, who were interviewed, put forth that a conservative approach
to training provided a firm base for understanding, but recognized that this approach
could instill a fear in Volunteers. Second-year Volunteers were available during the

Final Program Evaluation Report: Peace Corps/Jordan                                       10
entire PST time period to help Trainees answer questions, adjust to life as a Volunteer,
and integrate into Jordanian culture. They were commended by multiple members of the
most recent training group and their presence was recognized as valuable.


                 We recommend:

                 6. That the training staff assesses Trainees’ abilities to
                    express themselves in a culturally appropriate
                    manner and to employ additional support strategies
                    as needed.


The information that the post collects from Volunteers does not provide an accurate
representation of the effectiveness of pre-service technical training.

We asked Volunteers to rate how effective PST was in several key areas – language,
culture, safety and security, medical and health, and technical aspects. Overall, we found
that PC/Jordan Volunteers were satisfied with their training. The notable exception to
this was in the area of technical training. Sixty-four percent of Volunteers in our sample
responded that technical training during PST was below average or inadequate. This
rating spanned Volunteers from all project sectors and at different points in service. The
most common criticisms were that the technical training superficially covered too many
topics and that it was not specific to the Jordanian context (i.e., applicable for a Jordanian
school or center). The practicum component of technical training was highlighted as the
best component of technical training.
Table 3: Volunteer Perceptions of PST Training Effectiveness
                                       Below                 Above
                      Ineffective               Moderate                    Very
    PST Area                          average               average                     Average
                          (1)                     (3)                   effective (5)
                                         (2)                   (4)
  Language                 7%           14%           29%     36%           14%           3.4
  Culture                  0%            0%           36%     36%           29%           3.9
  Safety/Security          0%            0%            7%     43%           50%           4.4
  Medical/Health           0%            0%            7%     21%           71%           4.6
  Technical               14%          50%            21%     14%           0%            2.4
Source: OIG Interviews with 14 Volunteers.



However, PC/Jordan’s programming and training staff’s opinion on the effectiveness of
PST technical training differed from Volunteers. One PC/Jordan staff member stated the
most recent PST had “one of the best Technical Training sessions ever.” Another staff
member agreed that the most recent PST had been an improvement over prior. Possibly
contributing to their perception was that the post had hired separate technical trainers for
each project, even though finding qualified instructors was a difficult task.



Final Program Evaluation Report: Peace Corps/Jordan                                        11
The difference in opinion on the effectiveness of technical training may lie in the way
that the post collects feedback on technical training. PC/Jordan collects PST feedback
from Trainees through staff interviews with Trainees, via Language and Cultural
Facilitator (LCFs), and two written evaluation forms at the conclusion of PST. The first
written evaluation form asks the Trainee to respond to three general questions about PST.
This final evaluation form solicits very general information about PST and does not
provide a format for Trainees to comment separately on each component of training (i.e.,
safety and security, cross-cultural, medical/health, language, and technical training). The
second form asks Trainees to rate their LCF according to specific criteria.

In addition, the post has identified sector competencies and learning objectives for each
sector. But it is not clear whether the Trainee feedback process assesses technical
competence. This information would provide an additional feedback loop for technical
training.


                We recommend:

                7. That the programming and training staff collect
                   Trainee feedback on all components (language,
                   cross-cultural, technical, safety and health) of pre-
                   service training.

                8. That post use sector competencies and learning
                   objectives in their Trainee assessment process.


VOLUNTEER SUPPORT

This evaluation attempts to answer the question “to what extent has the post provided
adequate oversight and support to Volunteers?” To determine this, the evaluation
assesses numerous factors, including staff communications to Volunteers; project and
status report feedback; medical support; safety and security support elements such as site
visits, the Emergency Action Plan (EAP), the handling of crime incidences; and the
adequacy of the Volunteer living allowance.

We found no significant areas of concern that would warrant action by the post related to
medical support or the Volunteer living allowance. Volunteers feel well supported by the
medical office. The Peace Corps Medical Officer (PCMO) plays a collaborative role in
the support of Volunteers and is often looked to by Volunteers for additional emotional
support. Regarding the living allowance, 93% of Volunteers interviewed stated that their
living allowance allows them to live a safe and healthy lifestyle “moderately” to “very
well.” Additionally, all Volunteers (n=13) interviewed stated that they believed that the




Final Program Evaluation Report: Peace Corps/Jordan                                     12
number of site visits that they had received was adequate. All seven Volunteers who had
received site visits stated that they were moderately to very effective. 5

PC/Jordan’s and Jordanian officials work diligently to provide Volunteers with safe
and secure living and working environments.

As noted earlier in this report, the safety and security of Volunteers is at the forefront of
PC/Jordan post operations. The results of the post’s attention to safety and security are
evident.

Volunteers reported that they feel most safe at their homes, work sites, and/or in their
communities. Their perception changes slightly when asked about traveling or visiting
the Peace Corps office in Amman; 43% believe that they have an “average” likelihood of
experiencing a crime when traveling; 14% believe that they have an average likelihood of
experiencing a crime while visiting the Peace Corps office.

A review of crime incident data shows that Jordan’s rate of crimes is less than other
posts. The highest categories of incidents reported are “theft” and “other sexual assault.”
The post keeps a reconciliation log of all incidents reported and entered in the
Consolidated Incident Reporting System to ensure trend reporting on incidents is accurate
(i.e., reclassification of incidents that might occur at PC/Headquarters).

PC/Jordan’s Safety and Security Coordinator (SSC) has worked with PC/Jordan since
1999 and has been in the SSC position since it was created in 2002. One hundred percent
of Volunteers interviewed found that the support provided by the SSC to be favorable
(average to very supportive) and found safety and security training in PST to be
moderately to very effective (average score: 4.4). All Volunteers interviewed who
reported to have experienced a crime stated that they had reported the crime to the SSC
and that they believed that it was handled appropriately. Additionally, all Volunteers but
one, regardless of whether they had experienced a crime, stated that they would report a
crime should it occur to them.

PC/Jordan works closely with the U.S. Embassy. The Regional Security Office was
informed of and had access to Peace Corps processes for emergency action planning and
systems for crime incident reporting. All Volunteers interviewed at their homes were
able to produce the most recent copy of the post’s Emergency Action Plan (EAP).
Additionally, our review of the most recent EAP consolidation test, which the post
conducts annually after incoming Volunteers arrive at their permanent sites, showed that
the post successfully managed the consolidation test.

During Volunteer visits, 64% of Volunteer sites were located using Site Locator Forms.
Site Locator Forms for Volunteers in our sample had completed critical elements. No
global positioning system (GPS) coordinates were recorded on the forms; however, the

5
  When asked “Is the number of site visits you have received adequate?” there was no distinction between
“technical” and “support” site visits from leadership, programming, training, safety and security, or medical
staff.
Final Program Evaluation Report: Peace Corps/Jordan                                                       13
post had recently received their GPS unit. Staff took coordinates during Volunteer visits
for this evaluation.

The Volunteer housing that we observed did not meet the post’s housing criteria.

We reviewed Volunteer housing in our sample to see if it met the post’s criteria. This
evaluation did not find significant areas of concern with the Volunteer housing that
would warrant action by the post. However, we found the following items of interest:
            •   Five of 10 failed the criterion that the residence must be “away from
                where crowds gather.” 6
            •   Three of 10 did not have iron bars on all accessible windows.
            •   Seven of 10 did not have screens on all windows.

PC/Jordan’s criteria for selecting Volunteer housing is clear, though some items require
judgment that exceeds a physical inspection and requires a familiarity with the site.


                We recommend:

                9. That the post review its housing criteria and
                   associated checklist to determine criteria that are
                   meaningful.


Volunteers reported that they were not clear on the type and frequency of program
support they can expect from PC/Jordan staff.

While Volunteers interviewed as part of this evaluation reported that they generally felt
supported, they were not clear on how to involve PC/Jordan programming staff at
different stages in their service. Additionally, Volunteers reported that they did not find
feedback from their trimester reports to be useful, especially technical feedback. This
information corresponds with 2008 BVS scores on the inadequacy of feedback on
trimester reports.

IHPP Indicator 4.8 states:
        …staff and Volunteers alike recognize the distinction between when the
        staff can and should help Volunteers and when Volunteers can and should
        help themselves. Staff members are able to act in both cases, i.e., to
        provide help directly and to help the Volunteers help themselves, as
        appropriate (IHPP, p.6.)



6
 The Volunteer’s assessment of whether the housing location was “away from where crowds gather” was
used as the evaluator was only at the site for a brief time period.
Final Program Evaluation Report: Peace Corps/Jordan                                               14
                 We recommend:

                 10. That the post clarify expectations for Volunteer
                     support by communicating to Volunteers (1) turn-
                     around times for communication activities (2) what
                     they can expect from whom in terms of support and
                     (3) what PC/Jordan expects from Volunteers.

                 11. That the post publish a schedule of events for the
                     cycle of Volunteer service that includes
                     communication, site visits, training, and
                     performance reporting events.


Volunteers reported that they feel less supported by the country director than all other
post staff.

As part of this evaluation, we asked Volunteers to rate the level of support they receive
from post staff. On the whole, Volunteers reported that they feel supported by PC/Jordan
staff. However, Volunteers we interviewed perceive the support they receive from the
country director to be significantly lower than all other staff.

        Table 4: Responses on Perception of Volunteer Support 7
                                     Average Rating for          % of Volunteers rating
          Area
                                         Support               “average support” or better
          Leadership                        2.8                           57%
          Programming                       4.1                            95%
          Training                          4.3                           100%
          Safety and Security               4.6                           100%
          Medical                           4.6                           100%
          Administrative                    3.6                           100%
              Source: OIG Volunteer Interviews, 2008



The 2008 Biennial Volunteer Survey reported Volunteers’ perception of support provided
by the country director; 78% percent of Volunteers thought that the country director
interaction with Volunteers was less than adequate to be aware of issues and concerns.




7
  The leadership score was derived from the country director score (n= 7; 7 Volunteers gave a scoring of
“no basis from which to judge”); the programming score was derived by averaging the PTO, the Program
Manager, and the Programming and Training Assistant scores; the training score was derived from the
Training Manager score; the safety and security score was derived from the Safety and Security
Coordinator score; the medical score was derived from the PCMO score; the administrative score was
derived from the administrative officer score (n=3; 11 Volunteers gave a scoring of “no basis from which to
judge”)
Final Program Evaluation Report: Peace Corps/Jordan                                                      15
Table 5: Responses Regarding Country Director Interaction with Volunteers
    E11. To what extent does your country director interact with Volunteers to be aware of
    Volunteer issues and concerns, through training events, in-service conferences, site visits,
    Volunteer Advisory Council meetings, and other informal interaction?
                                     Not at all   Minimally Adequately Considerably      Completely
    To what extent does your
    country director interact with
    Volunteers to be aware of          14%          64%        11%            7%             5%
    Volunteer issues and
    concerns…? 8


Indicator 4.16 in Indicators of a High Performing Post states:

           …the Country Director has frequent personal contact with Volunteers. In
           addition to informal conversations, the country director conducts at least
           two formal interviews with each Volunteer in the country (i.e., Trainee
           interview and exit interview). Country directors do this to establish and
           reinforce relationships with Volunteers, assess training and service-related
           issues and convey their own messages to Volunteers on a personal level.

On a positive note, the country director has established a Volunteer Advisory Council
(VAC) at the post as a formal mechanism to collect Volunteer feedback. Indicators of a
High Performing Post highlights “the existence of a VAC or some other mechanism that
gathers, analyzes, and funnels Volunteer concerns and suggestions to staff” as an
indicator of success.

The evaluator attended a PC/Jordan VAC meeting and was encouraged that the majority
of issues raised during OIG interviews were raised for discussion during the meeting.

Though this finding does not seem to directly impact post operations, it might contribute
to the lack of trust and poor communication between Volunteers and PC/Jordan staff and
the post’s high early termination rate.


                   We recommend:

                   12. That the country director make efforts to build
                       relationships with Volunteers.




8
 n=44
Final Program Evaluation Report: Peace Corps/Jordan                                            16
MANAGEMENT CONTROLS

Another objective of the post evaluation is to assess the extent to which the post’s
resources are effectively aligned with the post’s and agency’s mission and priorities. The
evaluation also assesses how the agency has supported and overseen the post's mission
and program. To address these questions we assess a number of factors, including the
post’s planning and oversight of operations, staff management and training, relationships
with headquarters offices, and performance reporting.

PC/Jordan has systems and processes in place to ensure continuity of operations.

Although PC/Jordan is a relatively “young” post, the post benefits from seasoned staff.
All of the senior staff, except U.S. direct hires (country director, programming and
training officer, administrative officer), have been associated with the program for at least
ten years.

PC/Jordan seems to have clearly divided staff responsibilities into activities related to
particular functions: programming and training activities, led by the PTO; administrative
activities, led by the administrative officer; safety and security activities, led by the SSC;
and medical activities, led by the PCMO. All of the functions are overseen by the
country director.

PC/Jordan complies with submitting agency-required operational assessments such as the
Administrative Management Control Survey (AMCS), MS270 Compliance, Project
Status, and Training Status reports. The post has a clear system for keeping Volunteer
files and has a Duty Officer Handbook and duty officer log. In a review of ten files,
Performance Appraisals were conducted on schedule for all except two recently hired
employees. Additionally, the post employs a process for cross-training and human
resource back-ups for required functions.

Embassy officials who work with Peace Corps commended the country director,
programming and training officer and safety and security officer during OIG interviews.
Additionally, PC/Jordan staff interviewed as part of this program evaluation feel
supported by their leadership. The PTO was highlighted as providing additional support
outside of his purview. As part of his role, he supports the country director in conducting
community meetings, holding Volunteer interviews during training or exit interviews,
representing Peace Corps with outside entities. Additionally, PC/Jordan staff stated that
they feel well-supported by Peace Corps headquarters.

PC/Jordan’s quarterly roster review highlight priority support issues from different
staff perspectives and facilitates open communication between staff.

Each quarter, the PC/Jordan team meets to discuss support needs for currently serving
Volunteers. This provides each team member an opportunity to provide their perspective
regarding recent interactions or visits, confer with others and highlight any Volunteer
support matters to be addressed. This practice helps ensure that all staff are in accord and
Final Program Evaluation Report: Peace Corps/Jordan                                         17
that multiple perspectives are taken into consideration. We find this practice encouraging
and believe it to be one that other posts might benefit from.

PC/Jordan staff reported that they were unclear on how to interpret the post’s policies
on compensation such as “comp time” and per diem.

During the evaluation, some staff members, who must travel to visit Volunteers, voiced
confusion on the post’s policy on compensation (i.e., comp time and per diem).
Additionally, the 2007 OIG Audit of PC/Jordan found deficiencies with time and
attendance records and practices, including compensatory (comp) time. The post
acknowledged that it is currently in the process of updating its staff handbook.

Indicators of a High Performing Post section 3.2 states that "Peace Corps staff know their
responsibilities and rights, which are assembled in a readily accessible personnel manual
or handbook. All personnel have written job descriptions or statements of work, with
practical channels of supervision and responsibility. These are reviewed periodically and
tasks are changed or redistributed among staff or sections, as appropriate." Additionally,
Peace Corps Manual section 813 requires the country director to establish per diem rates
for country staff and contract personnel while performing official travel within the
country of assignment.


                We recommend:

                13. That the post review, establish, and communicate its
                    policy for in-country staff and contract personnel
                    official travel.


PC/Jordan has transitioned to the Volunteer Reporting Tool for Volunteer
performance reporting.

As part of the annual Project Status Reporting (PSR) process, program managers compile
and aggregate Volunteer performance reports for the Volunteers they supervise. This
information is reported to Peace Corps/Headquarters through the PSR process and is used
in the agency-wide aggregation included in the agency’s Performance and Accountability
Report (PAR). This evaluation attempted to understand the post’s process for collecting
and aggregating performance data.

Peace Corps has started the distribution of a new performance data collection tool, the
Volunteer Reporting Tool (VRT), for Volunteers in the field. This tool is customized for
each post and each project’s framework.

Volunteers interviewed for this evaluation stated that they were not trained on
performance reporting during PST. Most Volunteers in the most recent input knew little,
if anything, about performance reporting for their projects or the type of information

Final Program Evaluation Report: Peace Corps/Jordan                                    18
needed to be collected. The implementation timing of the VRT played a roll in this
according to staff interviews. Performance reporting training was provided to the longer
serving group during mid-service conference. Of the five Volunteers who responded to
the question, “how reliable is the data submitted in your performance reports,” four
believed that the information that they report is average to very reliable.


                We recommend:

                14. That the post provide training during PST on the
                    content and format of the Volunteers’ trimester
                    reporting.


Agency budget cuts have impacted PC/Jordan programming, training, and Volunteer
support activities.

The current budget environment for the agency is being felt by posts as they attempt to
conduct normal operations. Like many Peace Corps posts, PC/Jordan has been creative in
identifying cost-cutting solutions; however, the following negative impacts on
programming, training and support were raised during interviews with PC/Jordan staff:
    •   Site Visits to Volunteers: Staff has been required to prioritize Volunteer site visits
        (prioritizing incoming Volunteers highest) and have logistically arranged visits so
        that they will not require overnight stays. Staff have noted that these make for
        long days with a decreased amount of quality time spent with Volunteers and
        community stakeholders/counterparts.
    •   Length of PST: The length of PST has decreased from ten to eight weeks.
        Trainees have two fewer weeks to learn the language, technical skills, and safety
        and medical concerns that will help ensure a safe, healthy, and productive service.
    •   Ongoing support for language learning: The amount of money available for
        language tutoring once Volunteers are at site is insufficient. Post recommends a
        minimum number of tutoring hours to help Trainees who need language
        assistance. However, the post can no longer afford to pay for the minimum
        number of tutoring hours.
    •   Staff recruitment and retention: The post is unable to pay competitive wages to
        recruit and retain professional-level Language and Cultural Facilitators.

The post is facing additional daunting challenges with price increases and significant
fluctuations for leases and lease renewals; the administrative officer stated that 15-25%
increases were typical. In their FY 2009 Operating Plan, the post submitted un-funded
requests to cover lease cost increases and salaries. Medical accommodations and costs in
general were also raised as potential concerns.

While we believe that PC/Jordan and the EMA Region are in the best position to
prioritize operational activities, we highlight how agency budget cuts have impacted


Final Program Evaluation Report: Peace Corps/Jordan                                        19
PC/Jordan’s programming, training and support because it is ultimately affecting the
quality of service Peace Corps provides to Jordan and to the Volunteers.




Final Program Evaluation Report: Peace Corps/Jordan                                    20
                                   POST STAFFING
At the time of our field visit, PC/Jordan had 19 staff positions, one of which was vacant.
The positions included three U.S. direct hire employees (USDH), two foreign service
nationals (FSN), and 14 personal services contractors (PSC). We interviewed 10 staff.

The post also employs temporary staff/contractors to assist with PST. Given the time of
our visit, there were no PST temporary contractors on staff.


                                    PC/Jordan Positions
                            Position                           Status      Interviewed
  Country Director                                           USDH               X
  Programming and Training Officer                           USDH               X
  Administrative Officer                                     USDH               X
  Safety and Security Coordinator                            PSC                X
  PCMO                                                       PSC                X
  Medical Assistant                                          PSC                X
  Financial Assistant (vacant)                               FSN
  Cashier                                                    FSN
  IT Specialist                                              PSC
  General Services Officer                                   PSC
  General Services Assistant/Driver (3)                      PSC
  Homestay and Logistics Coordinator                         PSC
  Training Manager                                           PSC                 X
  Program Manager/Youth Development and Special              PSC                 X
  Education
  Program Manager/TEFL                                       PSC                 X
  Programming and Training Assistant                         PSC                 X
  Receptionist and IRC Manager                               PSC




Final Program Evaluation Report: Peace Corps/Jordan                                      21
                          INTERVIEWS CONDUCTED
As part of this post evaluation interviews were conducted with 14 Volunteers, 10 in-
country staff members, and 15 representatives from Peace Corps headquarters in
Washington, D.C., the U.S. Embassy in Jordan, and key project partners.


                  Interviews Conducted with PC/Headquarters Staff,
                     Embassy Officials, and Key Project Partners
                         Position                        Organization
        Regional Director                         PC/Headquarters
        Regional Chief Administrative Officer     PC/Headquarters
        Regional Programming and Training         PC/Headquarters
        Advisor
        Regional Chief of Operations              PC/Headquarters
        Country Desk Officer (2)                  PC/Headquarters
        Safety & Security Desk Officer            PC/Headquarters
        Education Specialist                      PC/Headquarters
        Youth Specialist                          PC/Headquarters
        Ambassador                                U.S. Embassy in Jordan
        Deputy Director of Security, Regional
                                                  U.S. Embassy in Jordan
        Security Office
        Managing Director of General Education    Jordan’s Ministry of
        and Students’ Affairs                     Education
        Manager of Organizations and              Jordan’s Higher Council for
        International Cooperation                 Youth
                                                  Jordan’s Ministry of Social
        Minister of Social Development
                                                  Development
                                                  Jordan’s Ministry of Social
        Secretary General
                                                  Development
                                                  Jordan’s Ministry of Social
        Director of Charitable Societies
                                                  Development




Final Program Evaluation Report: Peace Corps/Jordan                                    22
                       LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That post work closely with OPATS to ensure that monitoring and reporting of
   Volunteers’ performance and outcomes inform requests for Trainees.

2. That post consider revising its project plans to use Trainees’ existing skills or skills
   that can be developed during PST.

3. That the post review the post’s definition of support and expectations and
   communicate it to all Volunteers and staff.

4. That the post create a special working group comprised of staff and Volunteers to
   develop and implement strategies to address the lack of trust issues between staff and
   Volunteers.

5. That the post develop and implement strategies to collect Volunteer feedback and
   address cultural integration issues.

6. That the training staff assesses Trainees’ abilities to express themselves in a culturally
   appropriate manner and to employ additional support strategies as needed.

7. That the programming and training staff collect Trainee feedback on all components
   (language, cross-cultural, technical, safety and health) of pre-service training.

8. That post use sector competencies and learning objectives in their Trainee assessment
   process.

9. That the post review its housing criteria and associated checklist to determine criteria
   that are feasible.

10. That the post clarify expectations for Volunteer support by communicating to
    Volunteers (1) turn-around times for communication activities (2) what they can
    expect from whom in terms of support and (3) what PC/Jordan expects from
    Volunteers .

11. That the post publish a schedule of events for the cycle of Volunteer service that
    includes communication, site visits, training, and performance reporting events.

12. That the country director make efforts to build relationships with Volunteers.

13. That the post review, establish, and communicate its policy for in-country staff and
    contract personnel official travel.

14. That the post provide training during PST on the content and format of the
    Volunteers’ trimester reporting.
Final Program Evaluation Report: Peace Corps/Jordan                                           23
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
MEMORANDUM

To: Kathy Buller, Inspector General

From: David Burgess, Action Regional Director of Europe, Mediterranean & Asia

Date: August 6, 2009

Subject: Response to the Preliminary report of the Office of Inspector General Program
Evaluation of Peace Corps/Jordan


Enclosed please find the Regional response to the recommendations made by the Inspector
General for Peace Corps/Jordan, as outlined in the Preliminary Report of the IG Program
Evaluation.

The Region concurs with all recommendations.
               RESPONSE
           to the March 2009

       PRELIMINARY REPORT

                 of the
       Office of Inspector General
Program Evaluation of Peace Corps/Jordan
     Conducted November 1 -21, 2008
JORDAN - EMA Region Response to Preliminary OIG Report                              August 2009



Summary

The Europe, Mediterranean and Asia (EMA) Region concurs with all fourteen
recommendations provided by the OIG in its “Preliminary Program Evaluation Report:
Peace Corps / Jordan (March 2009).”

The EMA Region is heartened that the OIG found “no significant areas of concern that would
warrant action by the post related to PC/Jordan’s project plans and feedback loops related to
programming.” The Region also appreciates OIG observation that the program’s Jordanian
partners view their relationship with PC/Jordan positively, and that these partners believe that
the examples of Volunteerism which PCVs provide are valuable. The Region also notes that
86% of Peace Corps Volunteers in Jordan are satisfied with their job placements/assignments,
despite a challenging counterpart environment.

The Region and PC/Jordan understand that there is still work to be done, and post staff
members welcome the insights and information offered by the OIG Evaluation Report.

OIG Evaluation Results

Major themes in the OIG Program Evaluation Report deal with the challenges that Volunteers
face in cultural adjustment, community integration, and how PC/Jordan staff can best provide
Volunteer support. The Region and the post agree that training is the key intervention to
address these findings. How well a Volunteer is trained is often a primary determinant of an
individual’s success as a PCV. This is especially important considering that 50% of
PC/Jordan Volunteers perceived their technical training to be “below average.” PC/Jordan is
confident that it will address these findings through improved training staff preparation, and
by adapting its Community-Based Training (CBT) model in Q1 – FY-2010 to better
accommodate PCVs’ technical needs and cultural adjustment challenges. But the impact of
these changes will necessarily be demonstrated in the future. PC/Jordan has included many
of these planned actions in its recent IPBS submission for FYs 2010-2012, and the Region
expects that sufficient resources will be available to fully integrate and implement these
improvements.




                                               3
JORDAN - EMA Region Response to Preliminary OIG Report                                 August 2009




                       RESPONSE TO RECOMMENDATIONS


PROGRAMMING

1. Recommendation: That the post work closely with OPATS to ensure that monitoring and
reporting of Volunteers’ performance and outcomes inform requests for Trainees.

5 Concur

PC/Jordan continues to work closely with OPATS to obtain technical assistance in
monitoring and reporting Volunteers’ performance and outcomes. PC/Jordan also works
closely with its national partners: the Ministry of Education (MoE), Ministry of Social
Development (MSD), and the Higher Council for Youth (HCfY), through respective Partner
Advisory Committees (PACs). These PACs analyze the effectiveness of the projects, project
direction, size and strategies, and establish the skills and experience qualifications levels that
PC/Jordan will request for each training group. Beginning in April 2009, the post
implemented the agency’s new Volunteer Reporting Tool (VRT) to better document
performance and outcomes for PCVs. PC/Jordan‘s plans for 2010 include requests for
additional OPATS assistance in the areas of Program Design and Management workshops
and M&E assistance. Virtual assistance (e.g., Web-Ex sessions) will also be undertaken as
needed.

       Action & Status

   A. Implementation of the new VRT
      Date of Completion:        April 2009
      Documentation:              IG Recommendation # 1 Action A – VRT Roll-Out
                                 Notices

   B. Post will submit an OPATS assistance request for a consultation to strengthen its
      field-based monitoring and evaluation process, thereby better informing the Post
      when establishing trainee requests.
      Date of Completion:            July 2009
      Documentation:                IG Recommendation #1 Action B – FY2010 OPATS
                                    Field Assistance Request- M&E Specialist

2. Recommendation: That the post consider revising its project plans to use Trainees’
existing skills, or skills that can be developed during PST.

5 Concur

All three PC/Jordan project plans have a “green” status with OPATS and are meeting their
established objectives. Nevertheless, the post continues to review its project plans and makes
adjustments as necessary. During each PST and IST, the Training Unit continues to identify
and utilize existing and relevant skills that trainees possess. For the FY-2010 Trainee Input
requests, Program Managers (PMs) worked with their PCVs and incorporated Volunteers’
suggestions into the VADs, expanding the tasks that PCVs in all three projects can undertake.


                                                4
JORDAN - EMA Region Response to Preliminary OIG Report                             August 2009




       Action & Status

   A. The Training Unit will develop a questionnaire / skills assessment to be included in
      Trainees’ pre-arrival materials. This assessment will determine areas of technical,
      cultural and language curriculum to which a trainee might contribute during the PST.
      Date of Completion:            July 2009
      Documentation:                 IG Recommendation #2 Action A – J-13 Experience
                                     Skills Survey 2009

   B. The Training Unit will develop and use a post-training questionnaire to measure how
      successful the PST was in using and developing PCV skills that meet host country
      needs during this period of training.
      Date of Completion:            December 2009
      Documentation:                  IG Recommendation Action B – J-13 Post PST
                                     Experience Skills Survey 2009

       Additional Actions:

   •   In the TEFL project, PC/Jordan has requested from MoE more emphasis and support
       to allow experienced PCVs to conduct more teacher training.
   •   The Youth Development (YD) project is investigating sites affiliated with universities
       and emphasizing community development activities.
   •   The Special Education (SE) project is determining where SE Volunteers might teach
       students who are studying special education; and those SE Volunteers who have
       appropriate skills will be encouraged to become more involved in Community Based
       Rehab (CBR) activities.

CROSS-CULTURAL UNDERSTANDING

3. Recommendation: That the Post review its definition of support and expectations and
communicate it to all Volunteers and staff.

5 Concur

Providing proper Volunteer support is a major goal of the program and is taken very seriously
by all staff in every department of PC/Jordan. The Post has initiated efforts to communicate
to Volunteers the kinds and frequency of support that they can expect during their service. In
2008, the Country Director resurrected PC/Jordan’s newsletter, which is now used by staff to
communicate and clarify policies and procedures. In 2009 PC/Jordan also organized a Peer
Support Network and trained selected Volunteers to provide support to other PCVs in Jordan.
In FY-2010, PC/Jordan will use the Agency’s Core Expectations for Volunteers to clarify and
help to communicate its definition of PCV support and expectations. These efforts and
materials will be shared in various PC/Jordan documents and publications such as: PC/Jordan
Welcome Packets; PST orientation sessions; the post’s resurrected newsletter; and through
VAC and Peer Support Network activities.

   Action & Status




                                               5
JORDAN - EMA Region Response to Preliminary OIG Report                             August 2009


   A. Post will review its Policies and Procedures Guide and expand the Volunteer and
      Program Support section to include the Core Expectations for Volunteers and better
      clarify expectations for all Volunteers and staff.
      Date of Completion:            October 2009
      Documentation:                 N/A

   B. PC/Jordan will incorporate a statement and description of expectations regarding
       Volunteer support into the Staff Handbook.
       Date of Completion:           July 2009
       Documentation:                IG Recommendation #3 Action B – Staff Handbook
                                     Volunteer Support Statement

   C. Post will organize an office retreat and include on the agenda a discussion on
      Volunteer support expectations, and how the staff can better address those
      expectations.
      Date of Completion:            April 2009
      Documentation:                 IG Recommendation #3 Action C – Peace Corps Office
                                     Retreat Agenda


4. Recommendation: That the Post create a special working group comprised of staff and
Volunteers to develop and implement strategies that will address the issue of lack of trust
between staff and Volunteers.

5 Concur

Working with the current VAC, PC/Jordan has discussed ways to improve communication
between staff and Volunteers to build trust and to overcome any perceived lack of trust. This
of course is an on-going effort, as PCVs constitute an ever-changing population. It also
relates directly to PCVs’ expectations. At the March 2009 VAC meeting, PC/Jordan
established a working group to:

   1) Review the PC/Jordan Policies and Procedures Guide to identify areas that require
      clarification, updating, inclusion or modification.
   2) Solicit feedback and suggestions from Jordan PCVs regarding actions that staff and
      Volunteers can take to improve Volunteer support, as well as communications
      between staff and Volunteers.
   3) Produce a report that presents the findings of the working group and
      recommendations for actions to be taken.

The working group presented its findings at the June 2009 VAC meeting. Its
recommendations will be incorporated as appropriate into an updated PC/Jordan Polices and
Procedures Guide, and into training sessions scheduled for the upcoming MSC, PST and
ISTs.

   Action & Status

   A. Establish the Volunteer Support and Communication Working Group.
      Date of Completion:          April 2009
      Documentation:               IG Recommendation #4 Action A –VSCWG SOW


                                               6
JORDAN - EMA Region Response to Preliminary OIG Report                              August 2009




   B. Present the Volunteer Support and Communication Working Group’s findings and
      recommendation to the VAC and the CD.
      Date of Completion:          June 2009
      Documentation:               IG Recommendation Action G – VSCWG Final
                                   Report 2009

   C. Incorporate feedback from the working group into the PC/Jordan Policies and
      Procedures Guide and into MSC and PST sessions.
      Date of Completion:          October 2009
      Documentation:               N/A


5. Recommendation: That the Post develop and implement strategies to collect Volunteer
feedback and address cultural integration issues.

5 Concur

PC/Jordan incorporates substantive cross-cultural sessions into all training events. Cultural
sessions are based on the TDE process which is used to identify competencies and training
needs. With the implementation of the new Volunteer Reporting Tool (VRT) PC/Jordan has
included a question specifically soliciting feedback concerning Volunteers’ cultural
adaptation. Post will consider these responses when designing future cross-cultural training
sessions.

   Action & Status

   A. Inclusion of a cultural integration question into the new VRT to provide feedback
      from currently serving PCVs on issues related to cultural integration.
      Date of Completion:             July 2009
      Documentation:                  IG Recommendation #5 Action A – Volunteer Reporting
                                      Tool Cultural Question


   B. The PC/Jordan Training Unit will conduct a survey of COSing PCVs to identify
      successful strategies for addressing post-specific cultural integration issues, and will
      incorporate findings into the PST.
      Date of Completion:            August & September 2009
      Documentation:                 IG Recommendation #5 Action B – J-11 COS Cultural
                                     Integration Questionnaire


   C. The PC/Jordan Training Unit will conduct an additional survey at the Mid-Service
       Conference of group J-12 to assess successful strategies for addressing cultural
       integration issues.
       Date of Completion:          October 2009
       Documentation:               IG Recommendation #4 Action B – J-12 MSC Cultural
                                    Integration Questionnaire

TRAINING


                                               7
JORDAN - EMA Region Response to Preliminary OIG Report                            August 2009




6. Recommendation: That the Training staff assess Trainees’ abilities to express themselves
in a culturally appropriate manner and employ additional support strategies as needed.

5 Concur

During the PST Trainees receive an average of 54 hours of targeted cross-cultural
communication training, with an emphasis on adapting to the most conservative context of
the Jordanian culture. PCTs receive feedback from PST staff on their core cross-cultural
training competencies and cross-cultural communication abilities throughout the PST.
During each IST PC/Jordan assesses cross-cultural challenges and shares best practices to
address those challenges. Best practices are then incorporated in the next PST for subsequent
Trainees to benefit from their predecessors.

   Action & Status

   A. The Training Unit will develop a tracking process to assess PCTs’ progress adapting
      US-based communication styles to the Jordanian culture. These data will be used to
      provide individual feedback to help PCTs to adjust to Jordanian culture.
      Date of Completion:          October 2009
      Documentation:                N/A


7. Recommendation: That the Programming and Training staff collect trainee feedback on
all components (language, cross-cultural, technical, safety and health) of PST.

5 Concur

Using the TDE process of the “Kirkpatrick Levels of Performance,” PC/Jordan will identify
strengths and areas for improvement after each PST. These data will be incorporated into the
Post’s planning of the next PST’s design.

   Action & Status

   A. The Training Unit will develop a tracking matrix using the ratings that each PCT
   provides in the PST evaluations. The P&T Staff will review this information with the
   PCTs after each evaluation period.
      Date of Completion:           October 2009
      Documentation:                N/A


8. Recommendation: That the post use sector competencies and learning objectives in the
Trainee assessment process.

5 Concur

Prior to arriving in Jordan, Peace Corps provides each prospective PCT a CD-ROM with a
copy of the project plan and framework under which they will be working. These documents
are reviewed and updated through the Post’s TDE process. Upon arrival in Jordan, each PCT
receives a Training Handbook with a detailed list of competencies and learning objectives for


                                               8
JORDAN - EMA Region Response to Preliminary OIG Report                             August 2009


each training component and technical sector. During the individual trainee assessments, the
PCTs are asked to rate their progress on the established competencies for their training
period.

   Action & Status

   A. The Training Unit will administer a detailed pre- and post-assessment procedure that
      each PCT will complete. This process will document the progress that the PCTs have
      made during the PST period, and help to identify areas for additional training.
      Date of Completion:          October 2009
      Documentation:               IG Recommendation Action A – J-13 PST PCT
                                   Assessment Tools


VOLUNTEER SUPPORT

9. Recommendation: That the Post review its housing criteria and associated checklist to
determine criteria that are feasible.

5 Concur

PC/Jordan staff regularly work with counterpart organizations to identify and arrange suitable
Volunteer housing, which in some communities may be quite limited. Two PC/Jordan staff
members physically visit each community to assess housing options, using the PC/Jordan
housing criteria checklist as a tool to assess housing options,

   Action & Status

   A. Post will establish a committee comprised of the SSC, PCMO, GSO, a PM and a PCV
      to review and as necessary to revise the housing criteria checklist.
      Date of Completion:           June 2009
      Documentation:                IG Recommendation #9 Action A – Revised Housing
                                    Checklist


10. Recommendation: That the Post clarify expectations for Volunteer support by
communicating to Volunteers: (1) turnaround times for communication activities; (2) what
support they can expect from whom; and (3) what PC/Jordan expects from Volunteers.

5 Concur

Peace Corps recently introduced the organization’s “Core Expectations for Peace Corps
Volunteers.” These 10 Core Expectations mirror what Post endeavors to communicate to its
Volunteers from the time they are invited to PC/Jordan, to the day they end their service.
PC/Jordan has posted these Core Expectations in the PC office and in the Volunteer lounge,
and has these expectations in the PC/Jordan “Policies and Procedures Guide” that each
Volunteer receives. Nevertheless, post accepts that some PCVs do not effectively retain what
is presented in training and printed in the Guide. Staff therefore reminds PCVs of the
information and content available in the Guide.



                                               9
JORDAN - EMA Region Response to Preliminary OIG Report                             August 2009


   Action & Status


   A. PC/Jordan has posted the organization’s “Core Expectations for Peace Corps
      Volunteers” in the office and in the PCV lounge, and will further communicate these
      through the Post newsletter.
      Date of Completion:            April 2009 (“Core Expectations for Peace Corps
                                     Volunteers” Posted in office & PCV Lounge)
                                     August 2009 (Core Expectations for Peace Corps
                                     Volunteers” included into the J-13 Invitee Newsletter
                                     and Posts Newsletter)
      Documentation:                 IG Recommendation #10 Action A – Post Newsletter
                                     with Core Expectations

   B. Post will review its “Policies and Procedures Guide” and expand the Volunteer and
      Program Support section to better clarify expectations to all Volunteers, including
      information concerning turnaround times for communication activities.
      Date of Completion:            October 2009
      Documentation:                 N/A


11. Recommendation: That the Post publish a schedule of events for the cycle of Volunteer
service that includes communication, site visits, training, and performance reporting events.

5 Concur

On a quarterly basis, the PTO sends an e-mail to all Volunteers listing specific dates and
events that are planned for the upcoming quarter. General information on the major events
during the cycle of a Volunteer’s service is included in the Volunteer “Policies and
Procedures Guide.”

   Action & Status

   A. Post will review its “Policies and Procedures Guide.” to expand and clarify sections
      relating to events for the cycle of Volunteers’ service
      Date of Completion:             October 2009
      Documentation:                  N/A

   B. Quarterly notices of major events will be posted on the P&T bulletin board and in the
      Volunteer Lounge, and will be included in the Newsletter.
      Date of Completion:           June 2009
      Documentation:                IG Recommendation # 11 Action B & C- Peace Corps
                                    Jordan Events Schedule


12. Recommendation: That the Country director increase efforts to build relationships with
Volunteers.

. 5 Concur



                                               10
JORDAN - EMA Region Response to Preliminary OIG Report                           August 2009


   Action & Status

   A. The CD will implement a schedule of periodic contacts with every Volunteer by
      phone.
      Date of Completion:        Implemented in April 2009
      Documentation:             Documentation is being requested.

   B. Post will organize optional Volunteer functions on a bi-monthly basis that will allow
      more opportunities for the CD to have informal contact with the Volunteers.
      Date of Completion:           Implemented in March 2009
      Documentation:                IG Recommendation #12 Action B – Peace Corps
                                    Jordan Social Events Schedule


MANAGEMENT CONTROLS

13. Recommendation: That the Post review, establish, and communicate its policy for in-
country official travel by staff and contract personnel.

5 Concur

In 2001, PC/Jordan published its most recent Staff Manual/Handbook. This publication is
currently being revised and updated. However, the post’s Admin Office has already revised
certain travel reporting documents, trained staff on using those documents, and held
orientation meetings explaining and discussing the in-country staff travel policy for
PC/Jordan. The updated policy and guidance will be included in the final 2010 revision of
the Peace Corps Jordan Staff Manual/Handbook.

   Action & Status

   A. Post has reviewed and updated the in-country staff and contract personnel official
      travel policy.
      Date of Completion:         June 2009
      Documentation:              IG Recommendation # 13 Action A –Staff Handbook
                                  2010 In-Country Travel Policy

   B. Post has drafted a revised 2010 Staff Manual/Handbook for review and discussion at
      post and in Hq. The final edition of the Handbook will be published and staff will
      receive orientation on the handbook following Hq. approval.
      Date of Completion:           October 2009
      Documentation:                PC/Headquarters is currently reviewing revisions to the
                                    Post Staff Handbook


14. Recommendation: That the Post provide training during PST on the content and
format of the Volunteers’ trimester reporting.

5 Concur




                                               11
JORDAN - EMA Region Response to Preliminary OIG Report                             August 2009


During FY-2009, Peace Corps introduced the new Volunteer Reporting Tool (VRT).
Unfortunately that system was not introduced until after the PC/Jordan PST had ended; nor
were funds available to conduct special PCV training sessions in that new system. After
funds became available, the Post trained the newest group of Volunteers (i.e., the J-12s) to
use the new VRT reporting format during that new group’s first IST. PC/Jordan expects to
be able to fund training for additional PCVs during FY-2010.

   Action & Status

   A. A comprehensive training session on Volunteer Reporting and use of the new
      Volunteer Report Tool (VRT) will be incorporated into the PST schedule prior to the
      Volunteers’ deployment to site.
       Date of Completion:            July 2009
       Documentation:                 IG Recommendation #14 Action A – A Volunteer
                                      Training Session for VRT




                                               12
JORDAN - Addendum to Response to Preliminary OIG Report                  August 2009




MEMORANDUM

To: Kathy Buller, Inspector General

From: David Burgess, Acting Regional Director of Europe, Mediterranean & Asia

Date: August 24, 2009

Subject: Addendum to Response to the Preliminary report of the Office of Inspector
General Program Evaluation of Peace Corps/Jordan


Enclosed please find an addendum and additional supporting documentation to the
Regional response to the recommendations made by the Inspector General for Peace
Corps/Jordan.


The Region concurs with all recommendations.




                                              1
JORDAN - Addendum to Response to Preliminary OIG Report                      August 2009


2. Recommendation: That the post consider revising its project plans to use Trainees’
existing skills, or skills that can be developed during PST

       Additional information for recommendation #2:

       Post holds weekly Programming & Training Staff Meetings. At the staff meeting
       on June 28, 2009, the Programming & Training staff discussed the current project
       plans and whether the plans use trainees’ already existing skills or skills that were
       developed during PST. The programming staff agreed that the current project
       plans do appropriately use the skills of the PCVs, and they will use the skills of
       the incoming training class. However, in order to capture the PCV perspective in
       post’s consideration on this issue, a simple survey tool has been developed that
       will be implemented during the J-13 IST in Q2 of 2010. Beyond this J-13 input,
       post plans to use this survey with all new PCV groups as a monitoring tool.
       Depending on the results of the surveys, post will continue to take appropriate
       action in further considering revision of project plans.

       Additional Actions & Status:

       C. Post held a programming staff meeting to consider revision of the project
          plans and developed a survey tool to capture the new PCV perspective on
          revision of project plans.

           Date of completion: July 15, 2009
           Documentation: Added Project Plan Feedback Survey


3. Recommendation: That the Post review its definition of support and expectations and
communicate it to all Volunteers and staff.

       Additional information for recommendation #3: Revised Volunteer Support
       Statement for Action B.


5. Recommendation: That the Post develop and implement strategies to collect
Volunteer feedback and address cultural integration issues.

       Additional information for recommendation #5: Revised J-11 COS Cultural
       Integration Questionnaire


8. Recommendation: That the post use sector competencies and learning objectives in
the Trainee assessment process.

      Additional information for recommendation #8: Revised J-13 PST PCT
Assessment Tools (3 documents by sector)


                                              2
JORDAN - Addendum to Response to Preliminary OIG Report                 August 2009


12. Recommendation: That the Country director increase efforts to build relationships
with Volunteers.



       Additional information for recommendation #12:
          • Added a volunteer contact log from the Country Director
          • Added list of Jordan Social Events PCV Attendees




                                              3
APPENDIX B

                               OIG COMMENTS

Regional management concurred with all 14 recommendations. We have closed
recommendation numbers 2, 8, 9, 12, and 14. Recommendation numbers 1, 3 – 7, 10, 11,
and 13 remain open pending confirmation from the chief compliance officer that the
following has been received:

   •   For recommendation number 1, documentation that the workshop referenced in
       the region’s response was conducted.
   •   For recommendation numbers 3 and 10, a copy of the revised Volunteer and
       Program Support section contained in the post’s “Policies and Procedures
       Guide.”
   •   For recommendation number 4, a copy of the revised “Policies and Procedures
       Guide.”
   •   For recommendation number 5, documentation that Volunteer feedback has been
       incorporated into pre-service training sessions on cultural integration issues.
   •   For recommendation number 6, documentation that the post has implemented a
       tracking process as described in the region’s response.
   •   For recommendation number 7, a copy of the post’s tracking matrix as described
       in the region’s response.
   •   For recommendation number 11, a copy of the section related to the cycle of
       Volunteer service in the post’s “Policies and Procedures Guide.”
   •   For recommendation number 13, a copy of the post’s revised Staff
       Manual/Handbook.


In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the
impact.
APPENDIX C


         PROGRAM EVALUATION COMPLETION
               AND OIG CONTACT

OIG CONTACT        Following the issuance of the final report, a stakeholder
                   satisfaction survey will be distributed. If you wish to
                   comment on the quality or usefulness of this report to help
                   us improve our products, please e-mail Susan Gasper,
                   Acting Assistant Inspector General for Evaluations and
                   Inspections, at sgasper@peacecorps.gov, or call (202)
                   692-2908.

STAFF              This program evaluation was conducted under the
ACKNOWLEDGEMENTS   direction of Shelley Elbert, Assistant Inspector General for
                   Evaluations, and by Evaluator Susan Gasper. Additional
                   contributions were made by Reuben Marshall.
        REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915

Fax:           202.692.2901

Email:         oig@peacecorps.gov
